TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Treasury Inspector General for Tax
               Administration – Federal Information Security
               Management Act Report for Fiscal Year 2014



                                     September 23, 2014

                             Reference Number: 2014-20-090




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


TREASURY INSPECTOR GENERAL FOR                                Contractor Systems.
TAX ADMINISTRATION – FEDERAL                                  Security Capital Planning.
INFORMATION SECURITY
MANAGEMENT ACT REPORT FOR                              Four security program areas were not fully
FISCAL YEAR 2014                                       effective due to one or more program attributes
                                                       that were not met:
                                                              Continuous Monitoring Management.
Highlights                                                    Incident Response and Reporting.
Final Report Issued on                                        Security Training.
September 23, 2014                                            Remote Access Management.

Highlights of Reference Number: 2014-20-090            Two security program areas did not meet the
to the Department of the Treasury, Office of the       level of performance specified due to the
Inspector General, Assistant Inspector General         majority of the attributes not being met:
for Audit.
                                                              Configuration Management.
IMPACT ON TAXPAYERS                                           Identity and Access Management.
The Federal Information Security Management            To meet the expected level of performance for
Act of 2002 (FISMA) was enacted to strengthen          Configuration Management, the IRS needs to
the security of information and systems within         improve enterprise-wide processes for
Federal Government agencies. The IRS collects          assessing configuration settings and
and maintains a significant amount of personal         vulnerabilities through automated scanning,
and financial information on each taxpayer. As         timely remediating scan result deviations, timely
custodians of taxpayer information, the IRS has        installing software patches, and controlling
an obligation to protect the confidentiality of this   changes to hardware and software
sensitive information against unauthorized             configurations.
access or loss.
                                                       To meet the expected level of performance
WHY TIGTA DID THE AUDIT                                for Identity and Access Management, the IRS
                                                       needs to fully implement unique user
As part of the FISMA legislation, the Offices of       identification and authentication that complies
Inspectors General are required to perform an          with Homeland Security Presidential
annual independent evaluation of each Federal          Directive-12, ensure that users are only granted
agency’s information security programs and             access based on needs, ensure that user
practices. This report presents the results of         accounts are terminated when no longer
TIGTA’s FISMA evaluation of the IRS for                required, and control the improper use of shared
Fiscal Year 2014.                                      accounts.
WHAT TIGTA FOUND                                       WHAT TIGTA RECOMMENDED
Based on this year’s FISMA evaluation,                 TIGTA does not include recommendations as
five of the 11 security program areas met              part of its annual FISMA evaluation and reports
the performance metrics specified by the               only on the level of performance achieved by the
Department of Homeland Security’s Fiscal               IRS using the guidelines issued by the
Year 2014 Inspector General Federal                    Department of Homeland Security for the
Information Security Management Act                    applicable FISMA evaluation period.
Reporting Metrics:
       Risk Management.
       Plan of Action and Milestones.
       Contingency Planning.
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 23, 2014


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY


 FROM:                           Michael E. McKenney
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Treasury Inspector General for Tax
                                 Administration – Federal Information Security Management Act
                                 Report for Fiscal Year 2014 (Audit # 201420001)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 Federal Information Security Management Act1 evaluation of the Internal Revenue Service for
 Fiscal Year 2014. The Act requires Federal agencies to have an annual independent evaluation
 performed of their information security programs and practices and to report the results of the
 evaluations to the Office of Management and Budget.
 The report was forwarded to the Treasury Inspector General for consolidation into a report issued
 to the Department of the Treasury Chief Information Officer. Copies of this report are also being
 sent to the IRS managers affected by the report results.
 If you have any questions, please contact me or Kent Sagara, Acting Assistant Inspector General
 for Audit (Security and Information Technology Services).




 1
     Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2014




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service’s Information Security Program
          Generally Complies With the Federal Information Security
          Management Act, but Improvements Are Needed in
          Configuration Management and Identity and Access Management ............. Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Treasury Inspector General for Tax Administration
          Information Technology Security-Related Reports Issued During the
          Fiscal Year 2014 Evaluation Period ............................................................. Page 21
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2014




                            Abbreviations

CIO                  Chief Information Officer
DHS                  Department of Homeland Security
FCD1                 Federal Continuity Directive 1
FIPS                 Federal Information Processing Standards
FISMA                Federal Information Security Management Act
FY                   Fiscal Year
GAO                  Government Accountability Office
HSPD-12              Homeland Security Presidential Directive-12
IP                   Internet Protocol
IRS                  Internal Revenue Service
ISCM                 Information Security Continuous Monitoring
IT                   Information Technology
NIST                 National Institute of Standards and Technology
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
PIV                  Personal Identity Verification
POA&M                Plan of Action and Milestones
SCAP                 Security Content Automation Protocol
SP                   Special Publication
TIGTA                Treasury Inspector General for Tax Administration
US-CERT              United States Computer Emergency Response Team
USGCB                United States Government Configuration Baseline
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2014




                                              Background

The Federal Information Security Management Act (FISMA) of 20021 was enacted to strengthen
the security of information and systems within Federal agencies. The FISMA requires Federal
agencies to develop, document, and implement an agency-wide information security program
that provides security for the information and information systems that support the operations
and assets of the agency, including those provided or managed by another agency, contractor, or
other source.
The FISMA requires the Office of Management and Budget (OMB) to develop and oversee the
implementation of policies, principles, standards, and guidelines on information security that are
commensurate with the risk and magnitude of the possible harm to Federal systems or
information. To ensure uniformity in this process, the FISMA requires the National Institute of
Standards and Technology (NIST) to prescribe standards and guidelines pertaining to Federal
information systems. The FISMA also charges the OMB with producing an annual report to
keep Congress apprised of Federal progress in increasing information security.
Agency heads are responsible for complying with the requirements of FISMA and related OMB
policies and NIST procedures, standards, and guidelines. In addition, the FISMA requires
agencies to have an annual independent evaluation performed of their information security
programs and practices and to report the evaluation results to the OMB. The FISMA states that
the independent evaluation is to be performed by the agency Inspector General or an independent
external auditor as determined by the Inspector General.
In July 2010, OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and
Activities of the Executive Office of the President and the Department of Homeland Security
(DHS), expanded the role of the DHS in regard to the operational aspects of Federal agency
cybersecurity and information systems that fall within FISMA requirements. The DHS prepares
the security metrics to assist the Federal agencies and the Inspectors General in evaluating
agency progress in achieving compliance with Federal security standards.
FISMA oversight of the Department of the Treasury is performed by two distinct Inspector
General offices: the Treasury Inspector General for Tax Administration (TIGTA) and the
Treasury Office of the Inspector General (OIG). The TIGTA is responsible for oversight of the
Internal Revenue Service (IRS), while the Treasury OIG is responsible for all other Treasury
bureaus. The Treasury OIG has contracted with KPMG LLP to perform the FISMA evaluation
of the non-IRS bureaus. The TIGTA will issue its final report with the results of its evaluation of
the IRS to the Treasury OIG, which will then combine the results for all the Treasury bureaus
into one report for the OMB.

1
    Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                                                                                            Page 1
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2014



The IRS collects and maintains a significant amount of personal and financial information on
each taxpayer. As custodians of taxpayer information, the IRS is responsible for implementing
appropriate security controls to protect the confidentiality of this sensitive information against
unauthorized access or loss.
This review was performed at, and with information obtained from, the IRS Information
Technology organization’s Office of Cybersecurity in New Carrollton, Maryland, during the
period May through August 2014. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 2
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2014




                                      Results of Review

The Internal Revenue Service’s Information Security Program
Generally Complies With the Federal Information Security
Management Act, but Improvements Are Needed in Configuration
Management and Identity and Access Management
To assist the Inspectors General in evaluating Federal agencies’ compliance with the FISMA, the
DHS issued the Fiscal Year (FY) 2014 Inspector General Federal Information Security
Management Act Reporting Metrics on December 2, 2013, which specified 11 information
security program areas and listed specific attributes within each area for evaluation. The
11 information security program areas are continuous monitoring management, configuration
management, identity and access management, incident and response reporting, risk
management, security training, plan of action and milestones, remote access management,
contingency planning, contractor systems, and security capital planning.
Overall, the IRS has established an information security program and related practices that cover
the 11 FISMA program areas. However, based on our FY 2014 FISMA evaluation, two of the
program areas, Configuration Management and Identity and Access Management, did not meet
applicable FISMA requirements due to the majority of the program attributes specified by the
DHS guidelines not being met. We also identified improvements needed in five other FISMA
program areas.
Based on our FY 2014 FISMA evaluation, five of the 11 security program areas met the
performance metrics specified in the DHS guidelines:
        Risk Management.2
        Plan of Action and Milestones.
        Contingency Planning.
        Contractor Systems.
        Security Capital Planning.




2
 Although the IRS met the performance metrics specified by the DHS for Risk Management, TIGTA found
deficiencies with the IRS’s risk-based decisions process that were not in alignment with policy. Specifically, we
found that not all risk-based decisions are adequately documented and tracked.
                                                                                                             Page 3
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



Four security program areas were not fully effective due to one or more DHS guideline program
attributes that were not met:
       Continuous Monitoring Management.
        The IRS has not yet implemented its Information Security Continuous Monitoring
        (ISCM) strategy, but stated that it is fully participating in the DHS’s Continuous
        Diagnostics and Mitigation Program to comply with the OMB M-14-033 mandate to
        implement ISCM and is in the process of determining its final toolset to meet the
        program requirements.
       Incident Response and Reporting.
        The IRS did not always report incidents involving Personally Identifiable Information to
        the U.S. Computer Emergency Response Team (US-CERT) within established time
        frames.
       Security Training.
        The IRS has not yet fully implemented a process for identifying and tracking contractors
        who are required to complete specialized training, but stated that it continues to make
        progress and is working to incorporate a clause into contracts that requires contractors to
        complete and record such training.
       Remote Access Management.
        The IRS has not fully implemented unique user identification and authentication that
        complies with Homeland Security Presidential Directive-12 (HSPD-12).
Two security program areas, Configuration Management and Identity and Access Management,
did not meet the level of performance specified by the DHS guidelines due to the majority of the
specified attributes not being met:
       Configuration Management.
        To meet the expected level of performance for Configuration Management, the IRS needs
        to improve enterprise-wide processes for assessing configuration settings and
        vulnerabilities through automated scanning, timely remediating scan result deviations,
        timely installing software patches, and controlling changes to hardware and software
        configurations.




3
 OMB, OMB Memorandum M-14-03, Enhancing the Security of Federal Information and Information Systems
(Nov. 2013).
                                                                                                Page 4
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2014



       Identity and Access Management.
        To meet the expected level of performance for Identity and Access Management, the IRS
        needs to fully implement unique user identification and authentication that complies with
        HSPD-12, ensure that users are only granted access based on needs, ensure that user
        accounts are terminated when no longer required, and control the improper use of shared
        accounts.
Until the IRS takes steps to improve its security program deficiencies and fully implements all
11 security program areas required by the FISMA, taxpayer data will remain vulnerable to
inappropriate use, modification, or disclosure, possibly without being detected.
Figure 1 presents TIGTA’s detailed results for the 11 security program areas in response to the
DHS’s FY 2014 Inspector General Federal Information Security Management Act Reporting
Metrics.4 TIGTA’s results will be consolidated with the Treasury OIG’s results of non-IRS
bureaus and reported to the OMB.
        Figure 1: TIGTA’s Responses to the DHS’s FY 2014 Inspector General
           Federal Information Security Management Act Reporting Metrics

1: Continuous Monitoring Management

Status of Continuous             1.1. Has the organization established an enterprise-wide continuous monitoring
Monitoring                            program that assesses the security state of information systems that is
Management Program         Yes        consistent with FISMA requirements, OMB policy, and applicable NIST
[check one: Yes or No]                guidelines? Besides the improvement opportunities that may have been
                                      identified by the OIG, does the program include the following attributes? 

                                      1.1.1. Documented policies and procedures for continuous monitoring.
                           Yes
                                      (NIST SP 800-53: CA-7)

                                      1.1.2. Documented strategy for information security continuous monitoring.
                           Yes
                                      (ISCM)

                                      1.1.3. Implemented ISCM for information technology assets.
                                      TIGTA Comments: The IRS has not yet implemented its ISCM strategy,
                           No         but it stated that it is fully participating in the DHS’s Continuous Diagnostics
                                      and Mitigation Program to comply with the OMB M-14-03 mandate and is in
                                      the process of determining its final toolset to meet the program requirements.

                           Yes        1.1.4. Evaluate risk assessments used to develop their ISCM strategy.




4
 Many abbreviations in this matrix are used as presented in the original document and are not defined therein.
However, we have provided the definitions in the Abbreviations page after the Table of Contents of this report.

                                                                                                              Page 5
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2014



                                    1.1.5. Conduct and report on ISCM results in accordance with their ISCM
                                    strategy.

                          No        TIGTA Comments: The IRS has not yet implemented its ISCM strategy,
                                    but it stated that it is fully participating in the DHS’s Continuous Diagnostics
                                    and Mitigation Program to comply with the OMB M-14-03 mandate and is in
                                    the process of determining its final toolset to meet the program requirements.

                                    1.1.6. Ongoing assessments of security controls (system-specific, hybrid, and
                          Yes       common) that have been performed based on the approved continuous
                                    monitoring plans. (NIST SP 800-53, NIST SP800-53A)

                                    1.1.7. Provides authorizing officials and other key system officials with
                                    security status reports covering updates to security plans and security
                          Yes       assessment reports, as well as a common and consistent POA&M program
                                    that is updated with the frequency defined in the strategy and/or plans.
                                    (NIST SP 800-53, 800-53A)

                                1.2. Please provide any additional information on the effectiveness of the
                                     organization’s Continuous Monitoring Management Program that was not
                                     noted in the questions above.

2: Configuration Management

Status of Configuration         2.1. Has the organization established a security configuration management
Management Program                   program that is consistent with FISMA requirements, OMB policy, and
[check one: Yes or No]    No         applicable NIST guidelines? Besides the improvement opportunities that may
                                     have been identified by the OIG, does the program include the following
                                     attributes? 
                          Yes       2.1.1. Documented policies and procedures for configuration management.
                          Yes       2.1.2. Defined standard baseline configurations.
                                    2.1.3. Assessments of compliance with baseline configurations.
                                    TIGTA Comments: The IRS has not deployed automated mechanisms to
                          No        centrally manage, apply, and verify baseline configuration settings and
                                    produce FISMA compliance reports using the NIST-defined Security Content
                                    Automation Protocol (SCAP) format for all of its IT assets.
                                    2.1.4. Process for timely (as specified in organization policy or standards)
                                    remediation of scan result deviations.
                          No        TIGTA Comments: The IRS has not yet fully implemented configuration
                                    baseline scanning tools and processes on all systems to ensure timely
                                    remediation of scan result deviations.
                                    2.1.5. For Windows-based components, USGCB secure configuration
                          Yes       settings are fully implemented and any deviations from USGCB baseline
                                    settings are fully documented.

                                                                                                            Page 6
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2014



               2.1.6. Documented proposed or actual changes to the hardware and software
               configurations.
      No       TIGTA Comments: The IRS has not yet fully implemented configuration
               and change management controls to ensure that proposed or actual changes to
               hardware and software configurations are documented and controlled.
               2.1.7. Process for the timely and secure installation of software patches.

      No       TIGTA Comments: The IRS has not implemented an adequate
               enterprise-wide process to ensure timely installation of software patches on all
               platforms.

               2.1.8. Software assessing (scanning) capabilities are fully implemented.
               (NIST SP 800-53: RA-5, SI-2)
      No
               TIGTA Comments: Monthly software assessment vulnerability scans are
               not performed on all systems.
               2.1.9. Configuration-related vulnerabilities, including scan findings, have
               been remediated in a timely manner, as specified in organization policy or
               standards. (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2)

      No       TIGTA Comments: The IRS has not yet fully implemented
               configuration-related vulnerability scanning tools and processes on all
               systems to ensure timely remediation of scan result deviations. Also, IRS
               processes to share vulnerability information with system owners and
               administrators are still under development.
               2.1.10. Patch management process is fully developed, as specified in
               organization policy or standards. (NIST SP 800-53: CM-3, SI-2)
      No       TIGTA Comments: The IRS has not implemented an adequate
               enterprise-wide process to ensure timely installation of software patches on all
               platforms.

           2.2. Please provide any additional information on the effectiveness of the
                organization’s Configuration Management Program that was not noted in the
                questions above.
           TIGTA Comments: The IRS intends to create and deploy a standard change
           management process for its Information Technology organization, supported by an
           integrated change management system called the Enterprise Configuration
           Management System.
           2.3. Does the organization have an enterprise deviation handling process and is it
                integrated with the automated capability?
      No   TIGTA Comments: The IRS has not yet implemented its ISCM strategy in order
           to accomplish an enterprise deviation handling process that is integrated with an
           automated capability.



                                                                                      Page 7
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2014



                                   2.3.1. Is there a process for mitigating the risk introduced by those
                                   deviations?
                         No        TIGTA Comments: The IRS has not yet implemented its ISCM strategy in
                                   order to accomplish an enterprise deviation handling process that is integrated
                                   with an automated capability.

3: Identity and Access Management

Status of Identity and         3.1. Has the organization established an identity and access management program
Access Management                   that is consistent with FISMA requirements, OMB policy, and applicable
Program [check one:      No         NIST guidelines and that identifies users and network devices? Besides the
Yes or No]                          improvement opportunities that may have been identified by the OIG, does
                                    the program include the following attributes? 
                                   3.1.1. Documented policies and procedures for account and identity
                         Yes
                                   management. (NIST SP 800-53: AC-1)
                                   3.1.2. Identifies all users, including Federal employees, contractors, and
                                   others who access organization systems. (NIST SP 800-53: AC-2)
                                   TIGTA Comments: Users are not uniquely identified and authenticated on
                         No        all IRS systems. Also, the IRS has not fully implemented unique user
                                   identification and authentication that complies with HSDP-12. In addition,
                                   nine of the 10 systems we reviewed did not have the NIST SP 800-53 AC-2
                                   security control fully in place.
                                   3.1.3. Identifies when special access requirements (e.g., multifactor
                                   authentication) are necessary.
                         No
                                   TIGTA Comments: The IRS has not fully implemented multifactor
                                   authentication in compliance with HSPD-12.
                                   3.1.4. If multifactor authentication is in use, it is linked to the organization’s
                                   PIV program where appropriate. (NIST SP 800-53: IA-2)

                         No        TIGTA Comments: The IRS has not fully deployed multifactor
                                   authentication via the use of an HSPD-12 PIV card for all users for network
                                   and local access to nonprivileged or privileged accounts as required by
                                   HSPD-12.
                                   3.1.5. Organization has planned for implementation of PIV for logical access
                                   in accordance with Government policies. (HSPD-12, FIPS 201,
                                   OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
                         No
                                   TIGTA Comments: Considerable challenges still exist for the IRS in
                                   achieving full implementation of PIV for logical access due to its legacy
                                   environment and other factors.




                                                                                                              Page 8
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2014



                3.1.6. Organization has adequately planned for implementation of PIV for
                physical access in accordance with Government policies. (HSPD-12,
                FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)

      No        TIGTA Comments: During the FY14 FISMA evaluation period, the IRS
                had not planned to implement PIV for physical access at all its facilities.
                However, the IRS has informed us that it has prioritized the remaining
                locations and developed a long-range plan, dependent on the availability of
                funding.
                3.1.7. Ensures that the users are granted access based on needs and
                separation-of-duties principles.
      No        TIGTA Comments: During FY 2013 and FY 2014, the GAO identified
                users that had been granted more access than needed and instances where the
                separation-of-duties principle was not enforced.

                3.1.8. Identifies devices with IP addresses that are attached to the network
                and distinguishes these devices from users. (For example: IP phones, faxes,
                and printers are examples of devices attached to the network that are
      No        distinguishable from desktops, laptops, or servers that have user accounts.)
                TIGTA Comments: The IRS is still in the process of implementing
                technical solutions and introducing automated tools to achieve full asset
                discovery and asset management in accordance with policy.
                3.1.9. Identifies all user and nonuser accounts. (Refers to user accounts that
                are on a system. Data user accounts are created to pull generic information
      Yes
                from a database or a guest/anonymous account for generic login purposes.
                They are not associated with a single user or a specific group of users.)
                3.1.10. Ensures that accounts are terminated or deactivated once access is no
                longer required.
      No        TIGTA Comments: The IRS identified systems that do not have controls in
                place to ensure that accounts are terminated or deactivated once access is no
                longer needed.
                3.1.11. Identifies and controls use of shared accounts.

      No        TIGTA Comments: During FY 2013 and FY 2014, the GAO identified
                improper use of shared accounts; for example, use of a generic administrator
                accounts and passwords.
            3.2. Please provide any additional information on the effectiveness of the
            organization’s Identity and Access Management that was not noted in the
            questions above.




                                                                                         Page 9
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



4: Incident Response and Reporting

Status of Incident             4.1. Has the organization established an incident response and reporting program
Response and Reporting              that is consistent with FISMA requirements, OMB policy, and applicable
                         Yes
Program [check one:                 NIST guidelines? Besides the improvement opportunities that may have been
Yes or No]                          identified by the OIG, does the program include the following attributes? 
                                   4.1.1. Documented policies and procedures for detecting, responding to, and
                         Yes
                                   reporting incidents. (NIST SP 800-53: IR-1)
                         Yes       4.1.2. Comprehensive analysis, validation, and documentation of incidents.
                                   4.1.3. When applicable, reports to US-CERT within established time frames.
                                   (NIST SP 800-53, 800-61; OMB M-07-16, M-06-19)
                         No        TIGTA Comments: The IRS did not always report incidents involving
                                   Personally Identifiable Information to the US-CERT within established time
                                   frames.
                                   4.1.4. When applicable, reports to law enforcement within established time
                         Yes
                                   frames. (NIST SP 800-61)

                                   4.1.5. Responds to and resolves incidents in a timely manner, as specified in
                         Yes       organization policy or standards, to minimize further damage.
                                   (NIST SP 800-53, 800-61; OMB M-07-16, M-06-19)
                                   4.1.6. Is capable of tracking and managing risks in a virtual/cloud
                         Yes
                                   environment, if applicable.
                         Yes       4.1.7. Is capable of correlating incidents.
                                   4.1.8. Has sufficient incident monitoring and detection coverage in
                         Yes       accordance with Government policies. (NIST SP 800-53, 800-61;
                                   OMB M-07-16, M-06-19)
                               4.2. Please provide any additional information on the effectiveness of the
                                    organization’s Incident Management Program that was not noted in the
                                    questions above.

5: Risk Management

Status of Risk                 5.1. Has the organization established a risk management program that is consistent
Management Program                  with FISMA requirements, OMB policy, and applicable NIST guidelines?
                         Yes
[check one: Yes or No]              Besides the improvement opportunities that may have been identified by the
                                    OIG, does the program include the following attributes? 
                                   5.1.1. Documented policies and procedures for risk management, including
                         Yes
                                   descriptions of the roles and responsibilities of participants in this process.




                                                                                                          Page 10
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2014



             5.1.2. Addresses risk from an organization perspective with the development
      Yes    of a comprehensive governance structure and organization-wide risk
             management strategy as described in NIST SP 800-37, Rev.1.

             5.1.3. Addresses risk from a mission and business process perspective and is
      Yes    guided by the risk decisions from an organizational perspective, as described
             in NIST SP 800-37, Rev. 1.
             5.1.4. Addresses risk from an information system perspective and is guided
      Yes    by the risk decisions from the organizational perspective and the mission and
             business perspective, as described in NIST SP 800-37, Rev. 1.
      Yes    5.1.5. Has an up-to-date system inventory.

             5.1.6. Categorizes information systems in accordance with Government
      Yes
             policies.
      Yes    5.1.7. Selects an appropriately tailored set of baseline security controls.

             5.1.8. Implements the tailored set of baseline security controls and describes
      Yes    how the controls are employed within the information system and its
             environment of operation.
             5.1.9. Assesses the security controls using appropriate assessment procedures
             to determine the extent to which the controls are implemented correctly,
      Yes
             operating as intended, and producing the desired outcome with respect to
             meeting the security requirements for the system.
             5.1.10. Authorizes information system operation based on a determination of
             the risk to organizational operations and assets, individuals, other
      Yes
             organizations, and the Nation resulting from the operation of the information
             system and the decision that this risk is acceptable.

             5.1.11. Ensures that information security controls are monitored on an
             ongoing basis, including assessing control effectiveness, documenting
      Yes    changes to the system or its environment of operation, conducting security
             impact analyses of the associated changes, and reporting the security state of
             the system to designated organizational officials.
             5.1.12. Information system-specific risks (tactical), mission/business-specific
      Yes    risks, and organizational-level (strategic) risks are communicated to
             appropriate levels of the organization.
             5.1.13. Senior officials are briefed on threat activity on a regular basis by
      Yes
             appropriate personnel (e.g., Chief Information Security Officer).
             5.1.14. Prescribes the active involvement of information system owners and
             common control providers, chief information officers, senior information
      Yes
             security officers, authorizing officials, and other roles as applicable in the
             ongoing management of information system–related security risks.




                                                                                     Page 11
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



                                   5.1.15. Security authorization package contains system security plan, security
                         Yes       assessment report, and POA&M in accordance with Government policies.
                                   (NIST SP 800-18, 800-37)
                                   5.1.16. Security authorization package contains accreditation boundaries,
                         Yes       defined in accordance with Government policies, for organization information
                                   systems.
                               5.2. Please provide any additional information on the effectiveness of the
                                    organization’s Risk Management Program that was not noted in the questions
                                    above.
                               TIGTA Comments: TIGTA found deficiencies with the IRS’s risk-based
                               decisions process that were not in alignment with policy. Specifically, we found
                               that not all risk-based decisions are adequately documented and tracked.

6: Security Training

Status of Security             6.1. Has the organization established a security training program that is consistent
Training Program                    with FISMA requirements, OMB policy, and applicable NIST guidelines?
                         Yes
[check one: Yes or No]              Besides the improvement opportunities that may have been identified by the
                                    OIG, does the program include the following attributes? 
                                   6.1.1. Documented policies and procedures for security awareness training.
                         Yes
                                   (NIST SP 800-53: AT-1)

                                   6.1.2. Documented policies and procedures for specialized training for users
                         Yes
                                   with significant information security responsibilities.
                                   6.1.3. Security training content based on the organization and roles, as
                         Yes
                                   specified in organization policy or standards.
                                   6.1.4. Identification and tracking of the status of security awareness training
                         Yes       for all personnel (including employees, contractors, and other organization
                                   users) with access privileges that require security awareness training.
                                   6.1.5. Identification and tracking of the status of specialized training for all
                                   personnel (including employees, contractors, and other organization users)
                                   with significant information security responsibilities that require specialized
                                   training.
                         No        TIGTA Comments: The IRS has not yet fully implemented a process for
                                   identifying and tracking contractors who are required to complete specialized
                                   training, but it stated that it continues to make progress and is working to
                                   incorporate a clause into contracts that requires contractors to complete and
                                   record such training.

                                   6.1.6. Training material for security awareness training contains appropriate
                         Yes
                                   content for the organization. (NIST SP 800-50, 800-53)



                                                                                                           Page 12
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



                            6.2. Please provide any additional information on the effectiveness of the
                                 organization’s Security Training Program that was not noted in the questions
                                 above.

7: Plan of Action & Milestones (POA&M)

Status of POA&M             7.1. Has the organization established a POA&M program that is consistent with
Program [check one:              FISMA requirements, OMB policy, and applicable NIST guidelines and
Yes or No]            Yes        tracks and monitors known information security weaknesses? Besides the
                                 improvement opportunities that may have been identified by the OIG, does
                                 the program include the following attributes? 
                                7.1.1. Documented policies and procedures for managing IT security
                      Yes       weaknesses discovered during security control assessments and that require
                                remediation.
                      Yes       7.1.2. Tracks, prioritizes, and remediates weaknesses.

                      Yes       7.1.3. Ensures that remediation plans are effective for correcting weaknesses.
                      Yes       7.1.4. Establishes and adheres to milestone remediation dates.

                                7.1.5. Ensures that resources and ownership are provided for correcting
                      Yes
                                weaknesses.
                                7.1.6. POA&Ms include security weaknesses discovered during assessments
                                of security controls and that require remediation (do not need to include
                      Yes
                                security weaknesses due to a risk-based decision to not implement a security
                                control). (OMB M-04-25)
                                7.1.7. Costs associated with remediating weaknesses are identified.
                      Yes
                                (NIST SP 800-53: PM-3; OMB M-04-25)
                                7.1.8. Program officials report progress on remediation to the CIO on a
                                regular basis, at least quarterly, and the CIO centrally tracks, maintains, and
                      Yes
                                independently reviews/validates the POA&M activities at least quarterly.
                                (NIST SP 800-53: CA-5; OMB M-04-25)

                            7.2. Please provide any additional information on the effectiveness of the
                                 organization’s POA&M Program that was not noted in the questions above.

8: Remote Access Management

Status of Remote            8.1. Has the organization established a remote access program that is consistent
Access Management                with FISMA requirements, OMB policy, and applicable NIST guidelines?
                      Yes
Program [check one:              Besides the improvement opportunities that may have been identified by the
Yes or No]                       OIG, does the program include the following attributes? 
                                8.1.1. Documented policies and procedures for authorizing, monitoring, and
                      Yes
                                controlling all methods of remote access. (NIST SP 800-53: AC-1, AC-17)

                                                                                                       Page 13
   Treasury Inspector General for Tax Administration – Federal
Information Security Management Act Report for Fiscal Year 2014



                8.1.2. Protects against unauthorized connections or subversion of authorized
      Yes
                connections.

                8.1.3. Users are uniquely identified and authenticated for all access.
                (NIST SP 800-46, Section 4.2, Section 5.1)
                TIGTA Comments: The IRS has not fully implemented unique user
      No        identification and authentication that complies with HSPD-12. In addition,
                system administrators of the virtual private network infrastructure and server
                components do not use NIST-compliant multifactor authentication for local or
                network access to privileged accounts.

                8.1.4. Telecommuting policy is fully developed. (NIST SP 800-46,
      Yes
                Section 5.1)
                8.1.5. If applicable, multifactor authentication is required for remote access.
                (NIST SP 800-46, Section 2.2, Section 3.3)
      No
                TIGTA Comments: The IRS has not fully implemented multifactor
                authentication that complies with HSPD-12.
                8.1.6. Authentication mechanisms meet NIST SP 800-63 guidance on remote
                electronic authentication, including strength mechanisms.
      No
                TIGTA Comments: The IRS has not fully implemented multifactor
                authentication that complies with HSPD-12.
                8.1.7. Defines and implements encryption requirements for information
      Yes
                transmitted across public networks.
                8.1.8. Remote access sessions, in accordance to OMB M-07-16, are
      Yes       timed-out after 30 minutes of inactivity, after which reauthentication is
                required.
                8.1.9. Lost or stolen devices are disabled and appropriately reported.
      Yes
                (NIST SP 800-46, Section 4.3; US-CERT Incident Reporting Guidelines)
                8.1.10. Remote access rules of behavior are adequate in accordance with
      Yes
                Government policies. (NIST SP 800-53: PL-4)
                8.1.11. Remote access user agreements are adequate in accordance with
      Yes
                Government policies. (NIST SP 800-46, Section 5.1; NIST SP 800-53: PS-6)
            8.2. Please provide any additional information on the effectiveness of the
                 organization’s Remote Access Management that was not noted in the
                 questions above.

            8.3. Does the organization have a policy to detect and remove unauthorized
      Yes
                 (rogue) connections?




                                                                                         Page 14
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



9: Contingency Planning

Status of Contingency          9.1. Has the organization established an enterprise-wide business
Planning Program                    continuity/disaster recovery program that is consistent with FISMA
[check one: Yes or No]   Yes        requirements, OMB policy, and applicable NIST guidelines? Besides the
                                    improvement opportunities that may have been identified by the OIG, does
                                    the program include the following attributes? 
                                   9.1.1. Documented business continuity and disaster recovery policy
                         Yes       providing the authority and guidance necessary to reduce the impact of a
                                   disruptive event or disaster. (NIST SP 800-53: CP-1)
                                   9.1.2. The organization has incorporated the results of its system’s Business
                                   Impact Analysis into the analysis and strategy development efforts for the
                         Yes
                                   organization’s Continuity of Operations Plan, Business Continuity Plan, and
                                   Disaster Recovery Plan. (NIST SP 800-34)
                                   9.1.3. Development and documentation of division, component, and IT
                         Yes
                                   infrastructure recovery strategies, plans, and procedures. (NIST SP 800-34)
                         Yes       9.1.4. Testing of system-specific contingency plans.

                                   9.1.5. The documented business continuity and disaster recovery plans are in
                         Yes
                                   place and can be implemented when necessary. (FCD1, NIST SP 800-34)
                                   9.1.6. Development of test, training, and exercise programs. (FCD1,
                         Yes
                                   NIST SP 800-34, NIST SP 800-53)
                                   9.1.7. Testing or exercising of business continuity and disaster recovery plans
                         Yes
                                   to determine effectiveness and to maintain current plans.
                                   9.1.8. After-action report that addresses issues identified during
                         Yes
                                   contingency/disaster recovery exercises. (FDC1, NIST SP 800-34)
                                   9.1.9. Systems that have alternate processing sites. (FCD1, NIST SP 800-34,
                         Yes
                                   NIST SP 800-53)
                                   9.1.10. Alternate processing sites are not subject to the same risks as primary
                         Yes
                                   sites. (FCD1, NIST SP 800-34, NIST SP 800-53)
                                   9.1.11. Backups of information that are performed in a timely manner.
                         Yes
                                   (FCD1, NIST SP 800-34, NIST SP 800-53)
                         Yes       9.1.12. Contingency planning that considers supply chain threats.
                               9.2. Please provide any additional information on the effectiveness of the
                                    organization’s Contingency Planning Program that was not noted in the
                                    questions above.




                                                                                                         Page 15
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2014



10: Contractor Systems

Status of Contractor         10.1. Has the organization established a program to oversee systems operated on its
Systems Program                    behalf by contractors or other entities, including organization systems and
[check one: Yes or No]   Yes       services residing in the cloud external to the organization? Besides the
                                   improvement opportunities that may have been identified by the OIG, does
                                   the program include the following attributes? 
                                    10.1.1. Documented policies and procedures for information security
                                    oversight of systems operated on the organization’s behalf by contractors or
                         Yes
                                    other entities, including organization systems and services residing in a public
                                    cloud.

                                    10.1.2. The organization obtains sufficient assurance that security controls of
                         Yes        such systems and services are effectively implemented and comply with
                                    Federal and organization guidelines. (NIST SP 800-53: CA-2)

                                    10.1.3. A complete inventory of systems operated on the organization’s
                                    behalf by contractors or other entities, including organization systems and
                                    services residing in a public cloud.
                                    TIGTA Comments: In FY 2014, the IRS maintained two
                                    contractor-managed systems in the Treasury FISMA Information
                         Yes        Management System (formerly, the Trusted Agent FISMA), which is the U.S.
                                    Department of the Treasury’s system for reporting FISMA data. The IRS
                                    Contractor Security Assessments Office maintains a separate listing of
                                    contractor sites that the IRS does not consider “FISMA-reportable,” but that
                                    require annual security reviews because each handles or processes IRS
                                    information. The IRS Contractor Security Assessments Office is responsible
                                    for evaluating security controls at these contractor sites.
                                    10.1.4. The inventory identifies interfaces between these systems and
                         Yes
                                    organization-operated systems. (NIST SP 800-53: PM-5)
                                    10.1.5. The organization requires appropriate agreements
                                    (e.g., Memorandums of Understanding, Interconnection Security Agreements,
                         Yes
                                    contracts, etc.) for interfaces between these systems and those that it owns and
                                    operates.
                         Yes        10.1.6. The inventory of contractor systems is updated at least annually.
                                    10.1.7. Systems that are owned or operated by contractors or entities,
                                    including organization systems and services residing in a public cloud, are
                         Yes
                                    compliant with FISMA requirements, OMB policy, and applicable NIST
                                    guidelines.
                               10.2. Please provide any additional information on the effectiveness of the
                                     organization’s Contractor Systems Program that was not noted in the
                                     questions above.




                                                                                                             Page 16
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2014



11: Security Capital Planning

Status of Security           11.1. Has the organization established a security capital planning and investment
Capital Planning                   program for information security? Besides the improvement opportunities
                         Yes
Program [check one:                that may have been identified by the OIG, does the program include the
Yes or No]                         following attributes? 
                                    11.1.1. Documented policies and procedures to address information security
                         Yes
                                    in the capital planning and investment control process.

                                    11.1.2. Includes information security requirements as part of the capital
                         Yes
                                    planning and investment process.
                                    11.1.3. Establishes a discrete line item for information security in
                         Yes
                                    organizational programming and documentation. (NIST SP 800-53: SA-2)

                                    11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the
                         Yes
                                    information security resources required. (NIST SP 800-53: PM-3)

                                    11.1.5. Ensures that information security resources are available for
                         Yes
                                    expenditure as planned.

                               11.2. Please provide any additional information on the effectiveness of the
                                     organization’s Security Capital Planning Program that was not noted in the
                                     questions above.
Source: Results of TIGTA’s FY 2014 FISMA evaluation of the IRS.




                                                                                                            Page 17
                     Treasury Inspector General for Tax Administration – Federal
                  Information Security Management Act Report for Fiscal Year 2014



                                                                                     Appendix I

           Detailed Objective, Scope, and Methodology

The objective of this independent evaluation was to assess the effectiveness of the IRS’s
information technology security program and practices for the period July 1, 2013, to June 30,
2014. To accomplish our objective, we responded to the questions provided in the DHS FY 2014
Inspector General Federal Information Security Management Act Reporting Metrics, issued on
December 2, 2013. The questions related to the following 11 security program areas:
      1. Continuous Monitoring Management.
      2. Configuration Management.
      3. Identity and Access Management.
      4. Incident Response and Reporting.
      5. Risk Management.
      6. Security Training.
      7. Plan of Action and Milestones.
      8. Remote Access Management.
      9. Contingency Planning.
      10. Contractor Systems.
      11. Security Capital Planning.
We based our evaluation work, in part, on a representative subset of 10 major IRS information
systems. We used the system inventory contained within the Treasury FISMA Information
Management System1 of major applications and general support systems with a security classification
of “Moderate” or “High” as the population for this subset.
We also considered the results of TIGTA audits completed during the FY 2014 FISMA
evaluation period, as listed in Appendix IV, as well as results from ongoing audits for which
draft reports were issued to the IRS by August 8, 2014.
Based on our evaluative work, we indicated with a yes or no whether the IRS had achieved a
satisfactory level of performance for each security program area as well as each specific attribute
listed in the DHS FY 2014 Inspector General Federal Information Security Management Act
Reporting Metrics. The Treasury OIG will combine our results for the IRS with its results for
the non-IRS bureaus and submit the combined yes or no responses to the OMB.


1
    Formerly the Trusted Agent FISMA system.
                                                                                             Page 18
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2014



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Midori Ohno, Lead Auditor
Cindy Harris, Senior Auditor
Bret Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                     Page 19
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2014



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Business Planning and Risk Management OS:CTO:SP:RM
       Cybersecurity OS:CTO:C




                                                                       Page 20
              Treasury Inspector General for Tax Administration – Federal
           Information Security Management Act Report for Fiscal Year 2014



                                                                            Appendix IV

 Treasury Inspector General for Tax Administration
  Information Technology Security-Related Reports
Issued During the Fiscal Year 2014 Evaluation Period

 1. TIGTA, Ref. No. 2014-20-021, Used Information Technology Assets Are Being Properly
    Donated; However, Disposition Procedures Need to Be Improved (April 2014).
 2. TIGTA, Ref. No. 2014-20-016, Planning Is Underway for the Enterprise-Wide
    Transition to Internet Protocol Version 6, but Further Actions Are Needed (Feb. 2014).
 3. TIGTA, Ref. No. 2013-20-063, Improvements Are Needed to Ensure Successful
    Development and System Integration for the Return Review Program (Jul. 2013).
 4. TIGTA, Ref. No. 2013-20-089, Weaknesses in Asset Management Controls Leave
    Information Technology Assets Vulnerable to Loss (Sept. 2013).
 5. TIGTA, Ref. No. 2013-20-106, Automated Monitoring Is Needed for the Virtual
    Infrastructure to Ensure Secure Configurations (Sept. 2013).
 6. TIGTA, Ref. No. 2013-20-107, Full Compliance With Trusted Internet Connection
    Requirements Is Progressing; However, Improvements Would Strengthen Security
    (Sept. 2013).
 7. TIGTA, Ref. No. 2013-20-108, Better Cost-Benefit Analysis and Security Measures Are
    Needed for the Bring Your Own Device Pilot (Sept. 2013).
 8. TIGTA, Ref. No. 2013-20-117, Improved Controls Are Needed to Ensure That All
    Planned Corrective Actions for Security Weaknesses Are Fully Implemented to Protect
    Taxpayer Data (Sept. 2013).
 9. TIGTA, Ref. No. 2013-20-118, Foreign Account Tax Compliance Act: Improvements
    Are Needed to Strengthen Systems Development Controls for the Foreign Financial
    Institution Registration System (Sept. 2013).
 10. TIGTA, Ref. No. 2013-20-125, Customer Account Data Engine 2 Database Deployment
     Is Experiencing Delays and Increased Costs (Sept. 2013)
 11. TIGTA, Ref. No. 2013-20-127, While Efforts Are Ongoing to Deploy a Secure
     Mechanism to Verify Taxpayer Identities, the Public Still Cannot Access Their Tax
     Account Information Via the Internet (Sept. 2013).


                                                                                     Page 21
